Office of Inspector General

                    General  



          Fiscal Year 2009 

      Management Letter to the 

        Financial Statements 


              A10-01A 





            March 2010


FEDERAL MARITIME COMMISSION 

                              FEDERAL MARITIME COMMISSION
                                 800 North Capitol Street, N.W.
                                    Washington, DC 20573

                                        March 2, 2010

Office of Inspector General

TO:              Richard A. Lidinsky Jr.
                 Chairman

FROM:            /Adam R. Trzeciak/
                 Inspector General

SUBJECT:         Transmittal of the FY 2009 Management Letter

        When performing an audit of an agency’s major financial systems and accounting
processes, auditors often detect deficiencies in internal controls that do not rise to a level
of seriousness to be reported in the auditor’s opinion. These findings are communicated
to the auditee in a management letter. Attached is a copy of the FY 2009 Financial
Statement Management Letter that reports on such findings.

        During the annual review, findings within the same general area as earlier
findings are likely to occur. Consequently, the management letter begins with reporting
on the status of prior year findings. This is not necessarily an indication that management
is not addressing these issues. Rather, it reflects that certain areas are vulnerable to
accounting errors or system breakdowns and need constant oversight.

       This year’s management letter contains the status of two prior-year findings and
five new findings.

       The OIG will continue to review areas vulnerable to accounting error and report
any findings in next year’s management letter.

        I am available to discuss the letter at your convenience.


Attachment
March 1, 2010



Federal Maritime Commission
Washington, D.C.

In planning and performing our audit of the financial statements of the Federal Maritime
Commission (FMC) as of September 30, 2009, in accordance with auditing standards generally
accepted in the United States of America and Government Auditing Standards, issued by the
Comptroller General of the United States, we considered the FMC’s internal control over financial
reporting as a basis for designing our auditing procedures for the purposes of expressing our opinion
on the financial statements, and not for the purpose of expressing an opinion on the effectiveness of
the agency’s internal control. However, based on our audit, we are providing the following findings
and recommendations.

                                  Prior Year Findings - Updated


Finding 1. Agency floor on erroneous payments is set too low

Commission Order 78, Collection of Erroneous Payments Made to or On Behalf of Commission
Employees, (erroneous payments policy) sets forth the procedures for the recovery of erroneous
payments. An erroneous payment is defined as a payment made that should not have been made
or an overpayment, and may be due to procedural or administrative errors.

The agency’s Deputy Director of Administration (DDA) is responsible for the determination of
indebtedness. When an erroneous payment is made, the Director, Office of Financial
Management (OFM), prepares a detailed statement of the facts and circumstances causing the
erroneous payment. The DDA validates the debt based on information furnished by the OFM
Director. The Chairman is the only agency employee authorized to consider a waiver of
collection of the payment upon request from the employee.

It is the Commission’s policy to take action to recoup all erroneous payments in excess of $1.00.

During our fieldwork on the FY 2008 financial statement audit, the OIG reviewed documentation
relating to controls over erroneous payments. The OIG learned of an erroneous claim made by
an employee on a travel voucher. Due to a procedural error by the agency, the traveler had been
paid the claimed amount before OFM had completed its inquiry. The amount erroneously paid
was $15.
This transaction generated several e-mails and discussions that ultimately focused on per diem
claims (deductions for a vendor-provided meal) and the timing of OFM’s inquiry – much of it
coming after the claim had been paid. OFM told the OIG that agency policy to seek to recoup all
claims over $1.00 left it little flexibility, notwithstanding the de minimus amount in question.

We are not questioning the actions of either party concerning this transaction. However, we
believe the episode highlights the need to revisit the agency’s erroneous payments policy. It is
difficult to imagine any scenario where the agency comes out ahead by aggressively seeking to
collect a few dollars owed to it because of mistake or error. Rather, management needs the
discretion to forgive small claims made in error (without involving the FMC Chairman) while
continuing to pursue intentional false claims, regardless of the amounts involved.

Neither OFM nor the OIG believe that this individual attempted to defraud the federal
government. The employee was a first-time traveler who was not familiar with all federal travel
regulations. The traveler was intimidated by sanctions for submitting false claims (fines and/or
imprisonment) and laboriously researched this case. For its part, OFM followed the agency’s
policies on vendor-provided meals and erroneous payments.

To resolve this $15 claim, the OIG estimates that the agency (OFM, the traveler, and the
traveler’s coworkers and supervisor) spent 25 hours in research and discussions. 1 If all involved
were paid at a fully loaded average rate of $75 an hour (both conservative estimates), we
calculate that the agency spent over $1,500 to recover $15, or $100 for each $1 recovered. While
we do not underestimate the deterrent effect of OFM actions on future, would-be violators, we
believe that the costs to the agency to enforce a policy that seeks to recoup $1.00 far exceed its
benefits. 2

FY 2008 Recommendation: The OIG recommends that the Office of Administration seek
Commission approval to revise Commission Order 78, Collection of Erroneous Payments Made
to or On Behalf of Commission Employees, to give the Director of Administration the authority
to forgive erroneous payments of $25 or less.

FY 2009 Follow-up: The OIG noted that Commission Order 78 was revised to include the $25
limit. This comment is considered closed.


Finding 2. The Office of Management Services is not optimally using the agency’s
procurement services provider

The FMC contracted with the Bureau of Public Debt, Administrative Resource Center
(BPD/ARC) to provide accounting, travel and procurement services to the agency. BPD/ARC
charges for services based on actual direct and indirect costs of providing services in accordance
with an agreed-upon cost schedule. The cost schedule is updated at the beginning of each annual
service period. Costs are set for the service period, regardless of the number of transactions
BPD/ARC processes on behalf of the FMC.

1
  OIG estimates are based in large part on a log maintained by the traveler documenting hours spent researching and

discussing the case with coworkers. 

2
  We believe that our calculated estimate of agency costs to resolve this $15 transaction is not representative of all 

erroneous payment resolution costs. 


                                                         - 2 -

During our review, the OIG focused on the procurement-related services provided to the agency
by BPD/ARC, specifically simple acquisitions support. According to the Federal Acquisition
Regulation (FAR) 2.101, simplified acquisitions consist of any acquisitions under $100,000, with
some exceptions. Specific services provided by BPD include maintaining purchase order files,
issuing guidance to agency staff on purchasing methodologies to obtain needed goods or
services; and preparing acquisition purchase descriptions, work statements and final awards.

In FY 2008, the BPD’s cost to provide acquisition support to the FMC was $134,571. This
amount includes both transaction-based and overhead costs. Transaction costs are extrapolated
from prior year procurement activity, and include full-time equivalent (FTE) labor as well as
procurement system usage. Overhead costs include system labor support, PRISM application
and underlying support software fees, as well as other components, such as network, firewalls,
telecommunications, etc. FMC procurement costs are broken down as follows:

                                      BPD FY2008 Procurement Costs Breakdown

Procurement Services....................................................................................................$          72,600 

Procurement System Services .......................................................................................                35,160 

OIT Costs ......................................................................................................................   26,811


           Total ..................................................................................................................$ 134,571


The OIG notes that the $72,600 Procurement Services costs represent the direct labor paid (i.e.,
FTE) to BPD for processing procurement transactions. The remaining amount ($61,971)
represents FMC’s costs for using BPD systems. The latter cost remains essentially constant,
regardless of who (BPD or FMC) uses the system to process a procurement transaction.

The OIG researched procurement information from the agency’s on-line procurement system,
PRISM, to identify and compare the number and dollar amount of FY 2008 transactions
processed by BPD with the number processed in-house, i.e., by FMC’s Office of Management
Services. The following tables summarize our findings:

                                                         BPD/ARC                                    OMS/FMC
Number of Transactions

           Original Orders:                                        29                                            144
           Amendments:                                             27                                            110
                  Total:                                           56                                            254

Transaction Dollar Amounts

           Original Orders:                          $   916,340                                   $ 1,488,744
           Amendments:                                   674,525                                     3,949,257
                  Total:                             $ 1,590,865                                   $ 5,438,001




                                                                     - 3 -

The agency paid $72,600 to BPD for direct labor to process 56 transactions, or $1,300 per
transaction processed. 3 Further, the FMC processed over four times as many transactions as did
BPD and the average dollar value for transactions processed at BPD was greater than those
processed at FMC ($33,389 vrs. $21,409). Finally, 29 percent of all BPD-processed transactions
were processed in the last two months of the fiscal year, compared with 44 percent of OMS-
processed transactions.

In a May 2007 audit report, the OIG recommended that management “consider transferring
Office of Administration’s (OA) contracting function to the Bureau of Public Debt.” 4 The
recommendation was made in response to weaknesses identified in the agency’s procurement
process. In its comments on the audit, management informed the OIG that “procurement
requests above the $5,000 threshold are now sent to the Bureau of Public Debt for procurement
action.” 5 Notwithstanding, the OIG identified 76 actions that exceeded the $5,000 threshold
that were processed by OMS in FY 2008, with 33 processed in the first 10 months of the fiscal
year.

The OIG believes that OMS is not using BPD acquisition services optimally and is not
complying with its earlier response to rely on BPD to process transactions exceeding $5,000. In
prior discussions, OMS told the OIG that BPD would not process transactions that it receives
with less than 60 days remaining in the fiscal year (to allow sufficient time for competitive
bidding). BPD staff confirmed this standard, but also indicated that it is to be applied on a case-
by-case basis. For example, as noted above, 29 percent of all FY 2008 transactions sent to BPD
were processed in the final two months of the fiscal year.

FY 2008 Recommendation: The OIG recommends that the Office of Management Services
establish quotas for simple acquisitions to be processed by BPD/ARC, increasing by at least 10
percent each year.

FY 2009 Follow-up:        On December 15, 2009, management told the OIG that the
recommendation had been implemented.            Upon review of management’s supporting
documentation, we determined that the agency submitted to BPD the same number of simplified
procurement actions in FY 2009 as it did in FY 2008. We questioned management’s conclusion.

In management’s February 19, 2010, response to this finding, it concluded that, notwithstanding
earlier certification to the OIG that the recommendation had been implemented, “this
recommendation would not be beneficial to the Commission.” The response points out that the
price for BPD’s services each succeeding year is based on the amount of services used the
previous year. Accordingly, increasing transactions would result in higher costs. Further
assigning a quota to insure increases in transactions sent to BPD each year for processing “is
arbitrary and assumes that the Commission will process an ever growing number of transactions
each year.” For these reasons, the Managing Director concluded that his office could not justify
implementing the recommendation.

3
  Of the 56 transactions, the OIG identified six contract actions (which generally require more labor effort to
process), 22 small purchases averaging $33,389 per transaction, and 28 interagency transactions which, according to
BPD, require little time or effort to process.
4
  Audit of Contracts FMC-05-00021 and FMC-06-00007, Procurement of Consulting Services, A07-02
5
  Management comments to A07-02, April 23, 2007, p. 2.

                                                       - 4 -

As our finding points out, a little less than half of the total costs paid to BPD are essentially
fixed, i.e., they are based on system usage time that will accrue whether BPD or FMC staff
process a procurement transaction. Another consideration not mentioned by management but
discussed in our original finding is the burden on FMC staff (one staff dedicated to procurement
and one staff performing procurement responsibilities among other duties). In two previous
reports, the OIG identified weaknesses in the agency’s acquisitions process. 6           Sending
procurement requests to BPD would address many of our concerns identified therein.

Admittedly, the OIG has noted improvements in acquisitions since the issuance of prior audit
reports and we are willing to give management the benefit of the doubt regarding its ability to
process procurement requests following Federal Acquisition Regulation requirements in house.
However, we will closely monitor these transactions and revisit this recommendation if we
identify a return to past practices. This comment is considered closed.


                                        Current Year Findings


Finding 3. Accounts Payable are understated

Accounts payable (or payables) represent amounts owed for purchases of goods or services.
During the year, payables are recorded when an invoice, packing slip or receiving report is
received by the agency. The Office of Management Services (OMS) reviews all obligations at
year-end and establishes an accrual for all services and goods received by year-end (e.g., to
recognize that money is owed in the period that the goods were received). For example, an
invoice for computer monitors that were delivered on September 15 (FY 2009) may not be sent
by the manufacturer until October 10 (FY 2010). The expense should be recorded on the FY
2009 books because the monitors were received in FY 2009.

We reviewed accounts payable at year-end to ensure that all expenses for goods and services
were properly recorded in the appropriate period. During our review, we identified
approximately $94,000 in additional FY 2009 payables that were not recorded by the agency.
Without making the necessary adjustments, the payables were erroneously recorded as FY 2010
expenses, even though the goods or services were received in FY 2009. This understated the
FMC’s liabilities on its financial statements.

Identifying expenses when they occur near the end of the fiscal year is a two-step process
requiring agency staff (generally finance or procurement staff) (i) to identify large contract and
purchase items and to follow-up with the Contracting Officer’s Technical Representatives
(COTR) or other contact points to inquire whether the goods were received, and (ii) to estimate
the dollar amount of services or goods that were received since the prior invoice up through the
end of the fiscal year (September 30). The amounts are then accrued as payables.



6
  See Audit of Contracts FMC-05-00021 and FMC-06-00007, Procurement of Consulting Services, (A07-02) and
Presidential Appointee Furniture Purchases (A08-04). 


                                                   - 5 -

Under this standard operating procedure, OMS identifies all procurements over $10,000 at year
end then contacts the COTR to determine any amounts that should be accrued. The OIG noted
that OMS staff sent a letter to all COTRs requesting this accrual information but only half
responded. The remaining COTRs either did not respond or did not provide the needed
information.

The OIG also noted that when COTR responses indicated that accruals were required, the
accruals were not always made. According to OMS staff, she informed BPD finance staff but
did not follow up to verify the amounts were recorded. Generally, agency finance staff is
responsible for all accounting functions; however, the FMC’s Office of Budget and Finance
(OBF) is not involved in the year end accrual process.

FY 2009 Recommendation: Consistent with best practices at other federal agencies, the OIG
recommends that OBF assume responsibility for contacting COTRs to ensure that all accruals are
identified and recorded on agency books and records. OBF should also establish procedures to
follow-up with COTRs to ensure that all COTRs respond to the request letter and that the
appropriate accruals are made.

Finding 4. Close out procedures on contracts need improvement

Obligations represent the amount of orders placed, contracts awarded, services received, and
similar transactions during a given period that will require payment during the same or future
periods. Undelivered orders are obligations that are awaiting the receipt of the goods or services
ordered before funds are paid. During the normal course of business, officials may cancel an
obligation (i.e. undelivered order) that is no longer needed. An example of a service that is
frequently canceled after an obligation has been established is travel. Once canceled, the funds
may be used for other purposes, subject to appropriation limitations.

Periodically, and at the end of each fiscal year, federal agencies are required to reconcile their
obligation controlling accounts to the total amount posted to supporting records. In addition,
program and support offices are to review obligations to determine whether the amount obligated
on the books is a valid commitment of funds. In the absence of adequate system controls to
perform deobligation of invalid or unneeded orders, obligations will both accumulate and remain
open until they expire (i.e. 5 years). In certain situations these funds, if deobligated timely, may
be used for other contracts.

The OIG reviewed 10 undelivered orders to ensure payables were properly recorded (see Finding
3). During this review, we identified one FY 2008 undelivered order for $155,850 where
services were completed and the amount remained in undelivered orders at September 30, 2009.
The amount was deobligated in FY 2010 and returned to Treasury after identification by the
OIG. While it did not appear that these funds could have been used for other unmet agency
needs because the order was issued in FY 2008 and services were provided in FY 2009, the
discipline to deobligate funds timely, i.e., within the fiscal year the funds are obligated, will
provide the agency the flexibility to use funds where they are needed.




                                               - 6 -

FY 2009 Recommendation: The OIG recommends that the Office of the Managing Director
establish contract closing procedures where COTRs notify OMS and OBF staff when contracts
are completed so deobligation can be made timely and funds used to meet other agency needs
when appropriate. The OIG also recommends that OMS provide training for COTRs on this
procedure.


Finding 5. Formal procedures needed to account for internal use software

The mission of the Federal Accounting Standards Advisory Board (FASAB) is to promulgate
federal accounting standards after considering the financial and budgetary information needs of
citizens, congressional oversight groups, executive agencies, and the need of other users of
federal financial information. In June 1998 FASAB issued standard number 10, “Accounting for
Internal Use Software.” This standard identifies when to capitalize costs of software developed
or obtained for internal use. This includes the software used to operate an entity’s programs
(e.g., financial and administrative software, including that used for program management). In
this standard there are three phases (i.e. preliminary design phase, software development phase,
and Post-Implementation/Operational phase) of development of software. These phases
establish the standards of when and how software should be capitalized.

During the financial statement audit the OIG identified that the agency will begin developing in
FY 2010, two new software programs, including a new optical electronic method for filing Form
FMC-18, “Application for a License as an Ocean Transportation Intermediary” and
teleconferencing software. Although the agency plans to develop these software programs there
is not a formal procedure on how the agency will capture costs associated with these programs.

FY 2009 Recommendation: OBF, in consultation with OMS, should establish procedures on
how costs will be accumulated for these programs and work with the COTRs in accumulating the
costs. The costs then should be capitalized or expensed and reported on the agency’s financial
statements as appropriate.


Finding 6. Improvements needed in quality assurance review of Management’s Discussion
and Analysis

The agency prepares and submits its Performance and Accountability Report (PAR) on an annual
basis to the Office of Management and Budget (OMB). In this report the agency must complete
a Management Discussion and Analysis (MD&A). This section includes items such as the
President’s Management Agenda, Financial Performance overview, and Financial Highlights.
The Financial Highlights section includes a review of the agency’s financial statements and
explanations of changes occurring to the financial statements.

OBF and its staff members are integrally involved in the preparation of the PAR. The short time
frame for compilation of the PAR limits the availability for the quality assurance (QA) review
process. Further, the “over familiarity” with the details by staff compiling the PAR can be
counterproductive when the QA review process commences.


                                             - 7 -

During our financial statement audit the OIG noted that QA procedures were not adequate to
ensure that errors would be discovered in the MD&A before issuance of the PAR. When the
OIG reviewed a draft of the MD&A several errors were discovered that included formatting
errors, addition errors and financial information that was inconsistent with the agency’s financial
statements.

FY 2009 Recommendation: The OIG recommends that the Office of the Managing Director
establish a quality control review of the MD&A that reviews for mathematical errors, formatting
and consistency with the financial statements and footnotes.

In management’s response (attached to this report), the Managing Director stated that, moving
forward, he would “provide information to the OIG only when the MD&A is complete. Although
this will limit the time available for the OIG to review the document for substance, and for
changes to be made to reflect OIG concerns, OIG will have an accurate document to review.
This will be accomplished by October 31, 2010…”

As the OIG pointed out to management, providing the MD&A by October 31 of each year would
be an improvement in timing – not a limitation as management’s response suggests. For
example, during the FY 2009 review of the PAR, the OIG received a copy for audit on
November 5, 2009. Due to statutory deadlines, we had only a few days to complete our tests and
review of the information in the MD&A. This past year, our review found numerous errors of an
accounting nature that, in the usual course, would be identified in management letter. The OIG
looks forward to receiving the MD&A by October 31 of each year.


Finding 7. Agency program officials risk unauthorized commitments and anti-deficiency
violations when purchase orders are signed after services begin

Federal Acquisition Regulation (FAR) 1.602-3, defines an unauthorized commitment as an
agreement that is not binding - solely because the government representative who made it lacked
the authority to enter into that agreement on behalf of the government.

Section 13(g) of Commission Order 112, Procurement, states that no employee shall enter into a
formal or informal agreement to acquire services unless that employee has been delegated
specific written authority to do so. The requesting office must not direct a contractor to perform
services prior to being notified that a requisition has been approved.

The Anti-deficiency Act prohibits federal agencies from obligating or expending federal funds in
advance or in excess of an appropriation or apportionment. An Anti-deficiency Act violation
occurs when government officials make payments or commit the United States to make
payments at some future time for goods or services when there are insufficient funds in the
appropriation to cover the cost in full.

During our fieldwork, the OIG identified a number of unauthorized commitments by FMC
managers and staff involving transactions processed in house and by the agency’s procurement
service provider, the Bureau of Public Debt. These transactions involved purchase orders for



                                               - 8 -

services that were “signed off” by the contracting officer (CO) after the period of service had
already begun. 7 For example,

             •	 The agency entered into a contract with a vendor to provide court reporting and
                transcription for Commission meetings. The order was signed by the contracting
                officer on November 7, 2009. Before funds were obligated, the vendor provided
                services for two Commission hearings on October 15th and 29th, 2009.
             •	 The agency signed a contract (order) for cell phone services on December 3,
                2008, for services received in October 2008 and November 2008.
             •	 An order for document scanning services was signed by the contracting officer on
                June 13, 2009. However, the vendor provided daily services to the Commission
                in March 2009 through June 2009.
             •	 A vendor provided keycard monitoring and maintenance services to the agency
                beginning on October 1, 2008. The contracting officer signed the order for these
                services on November 18, 2008.

In all of the above unauthorized commitments, the agency received services without a valid
obligating document in place. This puts the vendor, the COTR and the agency at risk. The
vendor is at risk of not being paid for services provided; the COTR is at risk of being personally
liable for payment of these services and for an Anti-Deficiency Act violation if funds are not
provided by Congress to fund the activity; and the agency at risk of a costly lawsuit if the vendor
was told to provide the service by agency personnel.

One cause for late authorization of purchase orders is the timing of the procurement request (PR)
by program staff. Section 8(a) of Commission Order 112, Procurement, requires staff to prepare
a PR form to initiate the acquisition of a product or service and to route it through the FMC’s
automated procurement and contracting system for concurrence/approval at the required FMC
management levels prior to being submitted to the CO for any appropriate action. Further, all
PR’s shall include sufficient information and lead time to allow for preparation of the
procurement material (e.g., purchase order) in compliance with FAR time and content
requirements.

For the four orders identified above, the OIG noted that PRs for three of the four orders were
dated after the beginning of the performance period. The remaining PR was submitted one day
before the performance period, as the following table illustrates:

                                PROCUREMENT                    PURCHASE                PERFORMANCE
     SERVICE                      REQUEST                        ORDER                    PERIOD
Court Reporting                    09/30/08                     11/07/08                  10/01/08
Cell Phone                         10/15/08                     12/03/08                  10/01/08
Document Scanning                  06/04/08                     06/13/08                  03/06/08
Keycard Monitoring                 11/12/08                     11/18/08                  10/01/08



7
  According to FAR 2.101, a purchase order is an offer by the Government to buy supplies or services upon
specified terms and conditions, using simplified acquisition procedures.

                                                      - 9 -

It is unclear why managers are submitting purchase requisitions after the performance period has
already begun. Based on discussions with staff, it appears that, in some of the cases, the timing
of vendor invoices may contribute to some of the delay. Agency managers often know in
advance when the agency will be billed for a service. For services that bill at the end of each
quarter, we were told that that PRs and orders are often prepared just prior to invoicing.
However, waiting to obligate funds means that services are being provided to the agency without
funding authority, which creates risks to the vendor and the agency, as discussed above.

We also noted that, in all cases, the agency was operating under a continuing resolution (CR) at
prior year funding levels. During these periods, it cannot obligate funds for a full year to a
vendor due to funding uncertainty. Rather, the agency will “incrementally” fund an activity for
some period of time not exceeding the CR. When interim funding runs out, or when a new CR
or appropriation bill is enacted, program staff must revise the order for services to, again,
obligate funds. Unless COTRs actively monitor the funding timeframes in the purchase order,
they are unlikely to prepare PR’s (and by extension, purchase orders) timely.

Regardless of managers’ intent to spend funds cautiously during CR funding, it is important to
have purchase orders in place at the beginning of the period of performance because the purchase
order obligates funds for the activity. This ensures that funds will be available to pay for
services received, regardless of when the agency is billed.

The OIG commends management for recognizing the seriousness of this issue. On February 4,
2010, the FMC’s Managing Director spoke to FMC participants at the annual COTR refresher
training about the need to monitor funding to avoid unauthorized commitments.

FY 2009 Recommendation:      The OIG recommends that the Managing Director establish a
procedure to notify COTRs when funding on purchase orders are about to expire to assist them to
submit timely purchase requests to continue funding.

We believe that the implementation of these recommendations will provide the Federal
Maritime Commission with a stronger system of internal controls while also making its
operations more efficient. We will be happy to discuss the details of these recommendations
with you and assist in any way possible with their implementation.

Management comments to this letter are attached in their entirety.

While this report is intended solely for the information and use of the management of the
Federal Maritime Commission, it is also a matter of public record, and its distribution is,
therefore, not restricted.




Rockville, Maryland


                                              - 10 -
UNITED STATES GOVERNMENT                                             FEDERAL MARITIME COMMISSION


        Memorandum

TO               :  Inspector General                                        DATE:  February 19, 2010 

FROM             :  Managing Director   


SUBJECT          :  FY 2009 Financial Statement Management Letter   

I have reviewed the recommendations contained in the instant Management Letter. Please note
that while this Management Letter was presented to the Office of Administration, that office was
abolished during the recent reorganization of the Commission. The Office of the Managing
Director is therefore submitting these corrective actions which will be effected to address the
recommendations.

Management Letter Recommendation #1 (Finding 2). 

FY  2008  Recommendation:    The  OIG  recommended  that  the  Office  of  Management  Services 
establish  quotas  for  simple  acquisitions  to  be  processed  by  BPD/ARC,  increasing  by  at  least  10 
percent each year. 

FY  2009  Follow‐Up:    On  December  15,  2009,  management  responded  that  the 
recommendation  had  been  implemented.    Upon  review  of  management’s  supporting 
documentation,  we  determined  that  the  agency  submitted  to  BPD  the  same  number  of 
simplified  procurement  actions  in  FY  2009  as  it  did  in  FY  2008.   The  recommendation  remains 
open and will be reported as such in the OIG’s Semiannual Report to Congress in April 2010. 

Response:    After  further  reviewing  the  recommendation,  and  evaluating  the  benefits  and 
detriments  of  implementing  quotas  for  increasing  acquisitions  processed  by  BPD/ARC,  it  has 
become  clear  that  this  recommendation  would  not  be  beneficial  to  the  Commission.  
Accordingly,  I  am  retracting  the  original  2008  concurrence  of  the  Office  of  Administration  with 
the recommendation.   

A  quota  increasing  the  number  of  transactions  processed  by  BPD  each  year  could  result  in 
increased  future  year  costs  to  the  Commission.    The  recommendation  is  predicated  on  the 
finding that, in any given fiscal year, the Commission has a fixed price contract for BPD services, 
no  matter  how  many  transactions  are  processed.   Under  your  rationale,  the  more  transactions 
processed  by  BPD,  the  lower  the  cost  per  transaction,  thereby  benefitting  the  Commission.   As 
your  finding  also  recognizes,  however,  the  price  for  BPD’s  services  each  succeeding  year  is 
based  on  the  amount  of  services  used  the  previous  year.    Accordingly,  increasing  the  number 
of  transactions  in  any  given  year will  result  in  a higher  price  to  the Commission  in  the  following 
year.   To  implement a  quota  increasing  the  use each year  would,  then,  result  in  ever  increasing 
total costs year after year, rather than a cost saving.  Moreover, a quota increasing the number 
of  transactions  by  10  percent  annually  is  arbitrary  and  assumes  that  the  Commission  will 
process  an  ever  growing  number  of  total  transactions  each  year.   In  the  long  run,  there  is  no 
benefit  to  the  Commission  establishing  such  a  quota.    In  this  regard,  the  value  to  the 
Commission  of  using  BPD  is  the  need  for  expertise  regarding  fiscal  and  contractual  matters,  in 
view  of  the  Commission’s  limited  resources  in  that  area.    On  any  individual  transaction,  a 
variety  of  factors  may  be  considered  in  determining  whether  to  process  it  in‐house  or  to  use 
the  services  of  BPD.    Such  factors  include  timeliness  and  urgency,  complexity,  exigencies  of 
Continuing Resolutions and their impact on incremental funding, and the degree of control that 
the  Commission  must  exercise  in  ensuring  that  the  contractor  fully  understands  the 
Commission’s needs.   

Consequently,  we  cannot  justify  implementing  your  recommendation.   Individual  transactions 
will  continue  to  be  evaluated  as  to  the  means  most  advantageous  to  the  Commission, 
considering available resources. We consider this matter closed. 


Management Letter Recommendations #2 and #3 (Findings 3 and 4). 

FY  2009  Recommendation:    The  OIG  recommended  that  the  OFM  assume  responsibility  for 
contacting  COTRs  to  ensure  that  all  accruals  are  identified  and  recorded  on  agency  books  and 
records.    OFM  should  also  establish  procedures  to  follow  up  with  COTRs  to  ensure  that  all 
COTRs respond to the request letter and that the appropriate accruals are made. 

FY  2009  Recommendation:    The  OIG  recommended  that  OA  establish  contract  closing 
procedures  where  COTRs  notify  OMS  and  OFM  staff  when  contracts  are  completed  so 
deobligations  can  be  made  timely  and  funds  used  to  meet  other  agency  needs  when 
appropriate.  The OIG also recommends that OMS provide training for COTRs on this procedure. 

Response:  Each  COTR, when  appointed,  receives  a  COTR  appointment  letter,  which  details  the 
major  responsibilities  of  the  COTR  in  monitoring  each  contract.   It  is  the  responsibility  of  every 
COTR  to  notify  OMS  and  OFM  (now  Office  of  Budget  and  Finance  (OBF))  with  respect  to 
accruals  and  payment  information.    The  OIG  found  that  COTRs,  as  a  group,  have  been 
somewhat  dilatory  in  performing  their  responsibilities,  even  when  follow‐up  has  been  made  by 
OBF  or  OMS.    Since  OBF  has  followed  up  with  COTRs  to  little  avail,  it  seems  that  the  OIG 
recommendation would be insufficient to correct this problem.  Accordingly, we have taken the 
following steps.   

First,  refresher  training  emphasizing  this  and  other  problems  was  provided  to  all  COTRs  on 
February  4,  2010.   All  of  the  COTR‐related  issues  described  in  this  FY  2009  Management  Letter 
were  addressed  during  the  on‐site  training.    In  addition,  with  the  reorganization  of  the 
Commission that was effective on January 31, 2010, responsibility was assigned to an individual 
within  OMS  to  coordinate  with  agency  contracting  personnel,  with  OBF  and  with  COTRs  to 
follow‐up  and  ensure  that  timely  and  appropriate  accruals  are  made  and  that  contracts  are 


                                                 Page 2 of 4
properly  and  timely  closed.    That  individual,  a  former  OIG  staff  official,  will  be  designing 
procedures to ensure timely compliance.     

We  will  also  be  imposing  a  requirement  that  COTRs  be  rated  as  to  their  performance  in  their 
annual  performance  evaluations,  even  when  their  COTR  responsibilities  are  a  minimal  part  of 
their performance plans.   

New procedures will be in place by September 30, 2010. 


Management Letter Recommendation #4 (Finding 5). 

FY  2009  Recommendation:    The  OIG  recommended  that  OFM,  in  consultation  with  OMS, 
should establish procedures on how costs will be accumulated for these programs (internal use 
software)  and  work  with  the  COTRs  in  accumulating  the  costs.    The  costs  then  should  be 
capitalized or expensed and reported on the agency’s financial statements as appropriate. 

Response:    OBF  and  OMS  are  working  closely  together  to  determine  how  costs  will  be 
accumulated  and  to  determine  whether  costs  should  be  capitalized  or  expensed.    Once  it  is 
determined which costs will be capitalized, the SOP will be revised accordingly.  It is anticipated 
that this determination will be made by September 30, 2010. 


Management Letter Recommendation #5 (Finding 6). 

FY  2009  Recommendation:   The  OIG  recommended  that  the  Office  of  Administration  establish 
a  quality  control  review  of  the  MD&A  that  reviews  for  mathematical  errors,  formatting  and 
consistency with the financial statements and footnotes. 

Response:   In  order  to  effect  early  coordination  with  the  OIG,  an  early  draft  of  the  MD&A  was 
provided  to  the  OIG  in  order  to  obtain  expedited  consultation.    This  draft,  as  an  early  stage 
document,  admittedly  contained  several  errors.    Since  this  is  a  problem  for  the  OIG,  in  the 
future  the  Managing  Director  will  provide  information  to  the  OIG  only  when  the  MD&A  is 
complete.    Although  this  will  limit  the  time  available  for  the  OIG  to  review  the  document  for 
substance,  and  for  changes  to  be  made  to  reflect  OIG  concerns,  OIG  will  have  an  accurate 
document  to  review.  This  will  be  accomplished  by  October  31,  2010,  with  the  upcoming 
submission of the MD&A for FY 2010.  

                                  




                                                Page 3 of 4
Management Letter Recommendation #6 (Finding 7). 

FY  2009  Recommendation:    The  OIG  recommended  that  the  Managing  Director  establish  a 
procedure to notify COTRs when funding on purchase orders is about to expire to assist them to 
submit timely purchase requests to continue funding. 

Response:    Purchase  Orders,  prepared  by  BPD  and/or  OMS,  are  dependent  upon  the 
submission  of Purchase  Requests submitted through  PRISM by Bureaus and Offices.  COTRs are 
responsible  for  timely  initiating  properly  documented  PRs  and  ensuring  that  they  are  routed 
and approved prior to the periods of performance.   

Staff  of  the  Office  of  the  Managing  Director  has  been  reviewing  current  procedures  in 
conjunction with the recent agency reorganization.  In the response to Recommendations 2 and 
3  above,  I  advised  that  certain  responsibilities  were  being assigned  to  an  individual  within  OMS 
to  coordinate  with  agency  contracting  personnel,  with  OBF  and  with  COTRs.    Procedures 
developed  to  satisfy  Recommendations  2  and  3  will  include  a  requirement  for 
COTRs/requisitioners to ensure that purchase documents are issued prior to commencement of 
performance,  and  compliance  with  appropriation  requirements.  The  procedures  will  also 
include  a  mechanism  to  assist  COTRs  to  submit  timely  purchase  requests  to  continue  funding.  
This will be completed by September 30, 2010. 

                                                                  /s/ 

                                                          Ronald D. Murphy 
                                                          Managing Director 




                                                Page 4 of 4
